                                                               Issue Date
                                                                     December 15, 2011
                                                               Audit Report Number
                                                                      2012-PH-0002




TO:        Deborah C. Holston, Acting Deputy Assistant Secretary for Single Family
             Housing, HU
           //signed//
FROM:      John P. Buck, Regional Inspector General for Audit, Philadelphia Region,
             3AGA

SUBJECT:   HUD’s Philadelphia, PA, Homeownership Center Generally Monitored Loan
            Originations in Compliance With Requirements

                                  HIGHLIGHTS

 What We Audited and Why

           In accordance with our audit plan, we audited the U.S. Department of Housing and
           Urban Development’s (HUD) Philadelphia, PA, Homeownership Center’s quality
           assurance procedures for monitoring originations of Federal Housing
           Administration (FHA) single-family mortgage loans. Our audit objective was to
           determine whether the Homeownership Center properly monitored single-family
           loan originations in its jurisdiction by implementing quality assurance procedures
           for single-family mortgage loan originations in compliance with HUD
           requirements.

 What We Found


           The Homeownership Center generally monitored loan originations in its
           jurisdiction in compliance with HUD requirements. It met or exceeded its lender
           review target goals for each performance period within the audit period. It also
           properly reviewed loan originations for compliance with HUD requirements
           regarding borrowers’ cash assets used to meet the minimum required investment,
           employment and income records, liabilities, and credit characteristics.
What We Recommend


           This report contains no recommendations.

Auditee’s Response


           We discussed the draft report with HUD during the audit and at an exit conference
           on December 6, 2011. HUD did not provide written comments to the report
           because there were no recommendations




                                           2
                            TABLE OF CONTENTS

Background and Objective                                                       4

Results of Audit
                                                                               5
Finding 1: The Homeownership Center Generally Monitored Loan Originations in
Compliance With Requirements

Scope and Methodology                                                          8

Internal Controls                                                              10




                                            3
                      BACKGROUND AND OBJECTIVE

The Federal Housing Administration (FHA) is an organizational unit within the U.S. Department
of Housing and Urban Development (HUD) that provides mortgage insurance on loans made by
FHA-approved lenders throughout the United States and its territories. FHA insures mortgages
on single-family and multifamily homes including manufactured homes and hospitals. It is the
largest insurer of mortgages in the world, having insured more than 34 million properties since
its inception in 1934, and currently has 4.8 million insured single-family mortgages. FHA
mortgage insurance provides lenders with protection against losses as the result of homeowners
defaulting on their mortgage loans. The lenders bear less risk because FHA will pay a claim to
the lender in the event of a homeowner’s default. Loans must meet certain requirements
established by FHA to qualify for insurance.

HUD’s Office of Housing is responsible for the overall management, policy development, and
administration of FHA mortgage insurance programs. Under the Office of Housing, the Office
of Lender Activities and Program Compliance oversees FHA lenders. Within that office, the
Quality Assurance Division performs lender oversight functions. The purpose of the Quality
Assurance Division is to protect HUD from unacceptable risk by assessing lender performance,
internal controls, and compliance with HUD origination and servicing requirements, as well as
requiring corrective measures or initiating enforcement actions as appropriate. The Quality
Assurance Division performs its oversight functions at HUD’s headquarters in Washington, DC,
and at HUD’s four Homeownership Centers located in Atlanta, GA, Denver, CO, Philadelphia,
PA, and Santa Ana, CA. The Homeownership Centers assess or review lenders’ performance,
internal controls, and compliance with HUD loan origination requirements through onsite and
offsite reviews, evaluations, and analyses. The lender reviews are completed by local Quality
Assurance Divisions within the Homeownership Centers and are generally based on an annual
lender targeting plan developed by the headquarters Quality Assurance Division. The target plan
is based on various factors, including but not limited to loans underwritten, previous monitoring
reviews, volume, and product-related risk. The headquarters Quality Assurance Division also
incorporates input from the Homeownership Centers into its targeting methodology. The plan is
revised quarterly to reflect changes that occur during the fiscal year as appropriate.

The Philadelphia, PA, Homeownership Center’s jurisdiction covers Connecticut, Delaware, the
District of Columbia, Maine, Maryland, Massachusetts, Michigan, New Hampshire, New Jersey,
New York, Ohio, Pennsylvania, Rhode Island, Vermont, Virginia, and West Virginia. Therefore,
its Quality Assurance Division reviewed lenders in those areas as assigned by the headquarters
Quality Assurance Division and as dictated by its local lender monitoring needs.

Our objective was to determine whether the Homeownership Center properly monitored single-
family loan originations in its jurisdiction by implementing quality assurance procedures for
single-family mortgage loan originations in compliance with HUD requirements.




                                                4
                                      RESULTS OF AUDIT

Finding: The Homeownership Center Generally Monitored Loan
Originations in Compliance With Requirements
The Homeownership Center generally monitored loan originations in its jurisdiction in
accordance with HUD requirements. It met or exceeded its lender review target goals for each
performance period within the audit period. It also appropriately monitored FHA lenders’
underwriting practices by properly reviewing their loan originations for compliance with
applicable HUD requirements. By monitoring loan originations in accordance with
requirements, the Homeownership Center contributed to the Quality Assurance Division’s goal
to protect HUD from unacceptable risk.


    The Homeownership Center
    Met or Exceeded Its Lender
    Review Target Goals


                 The Homeownership Center met or exceeded its assigned lender review target goals
                 during the audit review period. The goals were assigned via lender targeting plans
                 developed by the headquarters Quality Assurance Division and disseminated to
                 HUD’s four Homeownership Centers. Based on a review of targeting plans and
                 other data obtained from the headquarters Quality Assurance Division, we
                 determined that the Homeownership Center met or exceeded its annual lender
                 review target goals between fiscal years 2009 and 2011 as shown in the table
                 below.1

                               Fiscal year               Goals           Accomplishments
                                  2009                    85                   89
                                  2010                    86                   86
                                  2011                    73                   75

                 Based on the data above, the Homeownership Center met its goal for fiscal year
                 2010 and exceeded its goals in fiscal years 2009 and 2011.




1
 The Homeownership Center’s goals and related accomplishments reflect origination and servicing reviews;
however, origination reviews made up more than 50 percent of the goals and accomplishments for each fiscal year.


                                                        5
    The Homeownership Center
    Generally Reviewed Loan
    Originations as Required


                  The Homeownership Center generally performed loan origination reviews in
                  accordance with internal policies and program requirements. It targeted high-risk
                  lenders for review as assigned by the headquarters Quality Assurance Division
                  and properly assessed their loan originations for compliance with HUD’s
                  underwriting requirements. We evaluated the Homeownership Center’s review of
                  originations by reexamining 12 of a random audit sample of 14 cases it reviewed
                  during the audit period. For the 12 cases, we reexamined applicable loan
                  documents to determine whether the loans were originated in compliance with
                  HUD requirements. We reviewed the borrowers’ cash assets used to meet the
                  minimum required investment, employment and income records, liabilities, and
                  credit characteristics and did not identify any significant discrepancies or
                  deviations from HUD requirements. We also found that the Homeownership
                  Center documented its reviews in accordance with requirements outlined in the
                  quality assurance desk guide developed by the headquarters Quality Assurance
                  Division.

                  For the remaining 2 of the 14 sample cases, we could not evaluate the
                  Homeownership Center’s reviews because the loan files it provided were
                  incomplete. The files were missing key documents required for loan origination
                  including the loan application, sales agreement, mortgage credit analysis
                  worksheet, form HUD-1, Internal Revenue Service forms W-2, and pay stubs.
                  The files were for loans that had been originated under the single-family direct
                  endorsement program.2 Therefore the Homeownership Center had to request the
                  related files from the lenders. We contacted the lenders directly to attempt to
                  obtain the missing documents; however, we were unsuccessful because one lender
                  had since merged with another lender and the other lender had been taken over by
                  a new lender. According to HUD requirements, originating lenders are required
                  to maintain loan origination case binders (files) for a period of 2 years from the
                  date of endorsement. The two loans in question were both originated or
                  underwritten more than 2 years ago. Therefore, we did not pursue either case.

    Conclusion


                  The Homeownership Center generally monitored loan originations in accordance
                  with applicable requirements. It met or exceeded its lender review target goals for
                  the period reviewed and also properly reviewed loan originations to ensure that
                  FHA lenders underwrote loans in compliance with HUD requirements, thereby

2
 The direct endorsement program authorizes approved lenders to underwrite loans without HUD’s prior review and
approval. Participating lenders are not required to submit loan files (case binders) to HUD unless requested to do so.


                                                          6
contributing to the Quality Assurance Division’s goal to protect HUD from
unacceptable risk.




                                7
                         SCOPE AND METHODOLOGY

We performed our audit at HUD’s Philadelphia, PA, regional office and our offices in
Philadelphia and Pittsburgh, PA, from March through October 2011. The audit covered the
period March 2009 through February 2011 but was expanded when necessary to include other
periods. We partly relied on computer-processed data for loan origination reviews. Although we
did not perform a detailed assessment of the reliability of data, we performed a minimal level of
testing and found the data to be adequate for our purposes. The testing entailed matching
electronic data on loan origination reviews to hard copy case file documentation for the loans.

To accomplish our objective, we

       Obtained relevant background information.

       Reviewed applicable HUD rules, regulations, and guidance.

       Interviewed various HUD personnel in headquarters and the Homeownership Center to
       determine the following:

              The role of the Homeownership Center’s Quality Assurance Division and
               headquarters in the implementation of policies and directives on lender targeting
               and monitoring.

              Duties, responsibilities, and functions of the personnel at the Homeownership
               Center’s Quality Assurance Division.

              The review process for loan originations.

       Reviewed case files for 12 loans including related review finding letters.

We also reviewed the quality assurance desk guide developed by the headquarters Quality
Assurance Division. The desk guide describes the Quality Assurance Division’s process for
targeting high risk lenders, preparing for various reviews and related documentation
requirements. The desk guide was last updated in 2008 and is currently undergoing an update.
We reviewed the guide to determine the Quality Assurance Division’s methodology for lender
targeting, loan origination reviews and related documentation requirements.

We identified a universe of 6,738 loans originated by 135 lenders, which were reviewed by the
Homeownership Center during the audit period as recorded in HUD’s Approval Recertification
and Review Tracking System. We then used statistical sampling to generate a random sample of
67 loans. Based on this sample, we randomly selected 14 loans for a preliminary review to
determine whether there were any problems with the Homeownership Center’s loan origination
reviews. We asked the Homeownership Center to provide the loan case files and origination
review documentation for the 14 loans. The Homeownership Center provided the files and
documentation; however, we could only assess its reviews of 12 loan originations because the


                                                8
files related to the remaining 2 were incomplete. Our review of the 12 files disclosed that the
Homeownership Center generally reviewed originations in accordance with internal policies and
program requirements; therefore, we did not review the remaining 53 loans in our sample.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                9
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                      Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meet its objectives.

                      Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

                      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resources use is
                      consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 10
We evaluated internal controls related to the audit objective in accordance with
generally accepted government auditing standards. Our evaluation of internal
controls was not designed to provide assurance regarding the effectiveness of the
internal control structure as a whole. Accordingly, we do not express an opinion
on the effectiveness of the Homeownership Center’s internal control.




                                11
